Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-Up Audit of the Medicaid Drug Rebate Program in South Dakota
August 13, 2008 | Audit A-07-08-03110
Executive Summary
South Dakota partially corrected some of the weaknesses reported in our prior audit.  However, it had not corrected the finding concerning offering the State's hearing mechanism to manufacturers to resolve disputes after 60 days.  Additionally, the State agency misreported $35,000 in drug rebates for family planning, the State Children's Health Insurance Program, and breast and cervical cancer.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS